IN THE SUPREME COURT OF THE UNITED STATES
No. 19Edward A. Weinhaus,
Petitioner,
v.
State of Illinois, et. al.
Respondents

CERTIFICATE OF SERVICE

I, Edward A. Weinhaus, hereby certify that on this 1st day of October, 2019, I
caused three copies of the Application for Extension of Time to File Petition for Writ
of Certiorari to be served by U.S. Mail on the following counsel:
Brian J. Hurst
Hurst, Robin & Kay, LLC
30 N. LaSalle St., Suite 1210
Chicago, IL 60602
(312) 782-2400
bhurst@hrkfamilylaw.com

Bridget DiBattista
Assistant Attorney General
100 W. Randolph St.
12th Floor
Chicago, IL 60601
(312) 814-2129
BDiBattista@atg.state.il.us

Attorney for Respondents

Attorney for Respondent:
State of Illinois

I further certify that all parties required to be served here have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2019.

Edward A. Weinhaus
10859 Picadily Square Dr.
St. Louis, MO 63146
(314) 580-9580
eaweinhaus@gmail.com
SCOTT A. CAMPBELL
Notary Public, Notary Seal
State of Missouri
St. Charles County
Commission # 12393920
My Commission Ex kni
t eat 02 2020

a

